July 8, 2013

The Honorable Charles T. Hagel
 Secretary of Defense

General Lloyd J. Austin III
 Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
 Commander, U.S. Forces–Afghanistan, and
 Commander, International Security Assistance Force


The Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR) is
charged with preventing and detecting waste, fraud, and abuse in programs and operations
relating to the reconstruction of Afghanistan. On a recent trip to Afghanistan, I uncovered a
potentially troubling example of waste that requires your immediate attention.
I was told by senior U.S. military officials that the recently completed Regional Command-
Southwest (RC-SW) Command and Control Facility, a 64,000 square feet building and
related infrastructure with a contract award value of $34 million that was meant to serve as
a command headquarters in Helmand to support the surge, will not be occupied. Based on
documents provided to SIGAR, it appears that military commanders in Afghanistan
determined as early as May 2010 that there was no need for the facility, yet the military still
moved ahead with the construction project and continued to purchase equipment and make
various improvements to the building in early 2013. Based on these preliminary findings, I
am deeply troubled that the military may have spent taxpayer funds on a construction
project that should have been stopped.
In addition, I was told that U.S. military officials expect that the building will be either
demolished or turned over to the Afghan government as our military presence in Afghanistan
declines and Camp Leatherneck is reduced in size. Both alternatives for how to resolve this
issue are troubling—destroying a never-occupied and never-used building or turning over
what may be a “white elephant” to the Afghan government that it may not have the capacity
to sustain. Determining all of the facts on how we reached this $34 million dilemma and
what can be done to prevent it from happening again is the reason for sending this
management alert letter to you.
I toured the facilty and, as the photographs show on the following page, in my opinion it
appears to be an impressive and well-constructed building. In fact, it appears to be the best
constructed building I have seen in my travels to Afghanistan. Unfortunately, it is unused,
unoccupied, and presumably will never be used for its intended purpose.



SIGAR SP-13-7 Management Alert: Command and Control Facility at Camp Leatherneck          Page 1
          Photos: RC-SW Command and Control Facility




         Note: Top left: exterior view; top right: tactical operations center; bottom left: cubicles; bottom right: unopened boxes and
         unused chairs.
         Source: SIGAR site visit, May 8, 2013.



One senior U.S. military official told me that this facility was designed for a military division
that was never deployed and, subsequently, a decision was made not to construct the
facility, but inexplicably the building construction started and is now complete. Military
officials explained this is an example of what is wrong with military construction in general—
once a project is started, it is very difficult to stop.
In addition to my recent inspection of the facility, in May and June of 2013, SIGAR
investigators and auditors visited the facility, conducted interviews, and reviewed
documentation that indicated the following:
    •    In February 2010, the Department of the Army requested funding from Congress for
         the project.
    •    In May 2010, the I Marine Expeditionary Force (Forward) submitted a request to U.S.
         Forces – Afghanistan (USFOR-A) to cancel the project.
    •    In February 2011, the Air Force’s 772nd Enterprise Sourcing Squadron issued a task
         order to AMEC Earth and Environment Inc. to construct the facility. 1
    •    In November 2012, the U.S. government took ownership of the facility.



1 Air Force Materiel Command issued contract number FA8903-06-D-8507-025 to AMEC Earth and Environment Inc. on

April 12, 2006, to build and update facilities and infrastructure at various locations in Afghanistan. On February 3, 2011,
the 772nd Enterprise Sourcing Squadron issued Task Order 0025 under this contract to build a command and control
facility (Project No. 76916).




SIGAR SP-13-7 Management Alert: Command and Control Facility at Camp Leatherneck                                                         Page 2
    •    The facility is now completed and usable, though it still needs additional
         communications equipment. It is estimated that such equipment may cost $2 million
         to obtain and $1 million to install.
    •    According to an official at Camp Leatherneck, the building can accommodate
         approximately 1,200 to 1,500 staff, and includes a war room, briefing theater, and
         offices for senior military officials, including a three star general. However, even
         under the best case scenario, only 450 people may be able to use the building today,
         which would result in excessive operation and maintenance costs because the
         cooling systems would be underutilized.
    •    The same official at Camp Leatherneck stated that the building’s heating, ventilation,
         and air conditioning system are expensive to operate and maintain, and there is no
         one currently at Camp Leatherneck who can maintain the air conditioning system.

According to a senior U.S. military official, as the footprint of Camp Leatherneck decreases,
the building could be outside the security perimeter, thereby making it unsafe for the
U.S. military to occupy it. This leaves the military with two primary options—demolish the
building or give it to the Afghan government.
However, to make it usable for the Afghan government, the building would require a major
overhaul of existing systems, including the expensive heating, ventilation, and air
conditioning systems. A high-ranking, senior U.S. military official also advised me that the
facility was built to U.S. construction standards rather than Afghan standards. For example,
the power runs at U.S. 60 cycles versus Afghan 50 cycles and U.S. 120 volts versus Afghan
220 volts. Therefore, it would not be easy to transfer the building to the Afghan government.
These were some of the reasons why the U.S. military officials we spoke with believe the
building will probably be demolished.
Although the building may be demolished, it appears that the military made modifications to
the building as recently as early 2013. According to documentation provided to SIGAR, the
military recently completed work on a water tank, the commander’s conference room, and
other parts of the building, and in response to an audit conducted by the Department of
Defense Inspector General that found problems with emergency exits at the facility,
USFOR-A agreed to make improvements to the facility.2 I am deeply concerned that USFOR-A
may be spending additional taxpayer dollars on a facility no one will ever use.
Due to the regular rotation of military and civilian personnel, we were unable to locate
officials at Camp Leatherneck who could provide more details about what happened. To
better understand the circumstances regarding this situation, I am requesting information



2 DODIG Report No. 2013-052, Inadequate Contract Oversight of Military Construction Projects in Afghanistan Resulted in

Increased Hazards to Life and Safety of Coalition Forces (March 8, 2013).




SIGAR SP-13-7 Management Alert: Command and Control Facility at Camp Leatherneck                                  Page 3
from your Command and the Department. Please answer the following questions by
July 25, 2013:
    •    Why did the I Marine Expeditionary Force (Forward) submit a request to USFOR-A to
         cancel the project?
    •    Since the U.S. military knew the facility would not be used for its intended purpose
         before construction began, who made the decision to continue with the project and
         what was the justification for that decision?
    •    Is there a process for terminating approved projects after Congress provides funding
         for them? If so, why did the military fail to stop this project?
    •    Why is the U.S. military continuing to spend U.S. taxpayer dollars to improve and
         equip a facility that may never be used?
    •    Did the U.S. military consider alternative uses for the facility when it first determined
         that the facility would not be used for its originally intended purpose? Are the
         alternatives proposed in the recently completed commander’s inquiry viable
         options? 3
    •    Is it true that another command facility was built to replace this facility and, if so,
         why? Is there a coordination function among construction projects that identifies
         potentially unnecessary or duplicate projects? If so, please explain the process.
    •    How was the decision made to choose the facility’s heating, ventilation, and air
         conditioning systems? What are the current and estimated annual operation and
         maintenance costs? How are those estimates calculated? What steps are being
         taken to minimize operation and maintenance costs while the building remains
         unoccupied? What will be done with the building and its contents as the boundaries
         of Camp Leatherneck are reduced post-transition?
    •    Has consideration been given to turning this building over to the Afghan government?
         Does the Afghan government have the financial resources, technical capacity, and
         political will to sustain the facility? If the building is turned over to the Afghan
         government, who will be responsible for operation and maintenance costs? Are
         Afghan officials aware that the building was constructed to U.S. standards? Has a
         study been performed to determine the cost of retrofitting the building for use by the
         Afghan government? If so, please provide a copy of the study.




3 On May 20, 2013, the U.S. military completed an Army Regulation (AR) 15-6 Investigation into the headquarters building

at Camp Leatherneck. Among other things, the investigations proposed turning the large briefing room into a movie theater
and portions of the first floor into a gym.




SIGAR SP-13-7 Management Alert: Command and Control Facility at Camp Leatherneck                                   Page 4
Should you or your staff have any questions about this request, you may contact me directly
or contact Monica Brym, Director of Special Projects, at 703-545-6003 or
monica.j.brym. civ@mail.mil. Thank you in advance for your cooperation in this matter. I look
forward to your response.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction




SIGAR SP-13-7 Management Alert: Command and Control Facility at Camp Leatherneck        Page 5
